                        U.S. SMALL BUSINESS ADMINISTRATION

                           OFFICE OF INSPECTOR GENERAL 

                                Washington, D.C. 20416 




                                                    AUDIT REPORT
                                            Issue Date: September 15, 1999
                                            Report Number: 9-22


TO:          Thomas A. Dumaresq, Assistant Administrator for Administration




SUBJECT:	 Audit of Cooperative Agreement No. SBA-HQ-95-W-0014 awarded to the
          North Texas Women’s Business Development Center

        We completed a closeout audit of the SBA cooperative agreement awarded to
the North Texas Women’s Business Development Center located in Dallas, Texas. The
award partially funded the creation of a center to provide financial, management, and
marketing assistance to businesses owned and controlled by women. Under the terms
of the cooperative agreement, the Center received a total of $321,560 in Federal
funding during the three project years. The Center was required to match Federal
funding 50 percent for the first year, 100 percent for the second year, and 200 percent
for the third year. The Center’s first project year started on June 15, 1995. At the
Center’s request, the agreement was terminated for the government’s convenience,
effective February 16, 1998 prior to the end of the third project year. The Center was
also awarded two other SBA cooperative agreements that were audited concurrently
and will be reported on separately.


                              OBJECTIVE AND SCOPE

       The audit objective was to determine whether claimed costs were allowable,
allocable, and reasonable. Judgmental samples, with emphasis on large dollar
amounts, were used to test costs allocated to the cooperative agreement from 1995
through 1998. We reviewed the cooperative agreement, program regulations,
accounting records, and cost documentation. We also interviewed a North Texas
Women’s Business Development Center board member and SBA officials. Fieldwork
was conducted from February through April 1999. The audit was performed in
accordance with Government Auditing Standards.
                                  RESULTS OF AUDIT

        We identified $167,448 of claimed costs that were unallowable in accordance
with the cooperative agreement; OMB Circular A-110 “Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations”; and OMB Circular A-122 “Cost
Principles for Non-Profit Organizations.” There were also unexpended Federal funds
totaling $60,007 for the first two project years. We found that SBA made an erroneous
claim of ownership over equipment. In addition, there were apparent conflicts of
interest with not only board members of the Center, but also with companies owned by
the board members.


FINDING 1 Unallowable Costs and Unexpended Federal Funds

        Although the Center’s accounting system showed expenses totaling $582,066 for
all three project years, $167,448 of these expenses were unallowable as summarized in
the chart below. Of this amount, $142,779 was unsupported; $16,482 was unallocable;
and $8,187 was unreasonable. The total recommended reimbursement of $125,280 is
less than the total unallowable costs of $167,448 because reimbursement is only
necessary for the amount of match shortage, and the unallowable and unexpended
Federal funds. The cooperative agreement required the Center to maintain complete
and accurate records, including supporting documentation. Costs were considered
unsupported when supporting documentation provided to the auditors was either
inadequate or missing. OMB Circular A-122 requires costs to be reasonable and
allocable to the award. In addition, there were unexpended Federal funds totaling
$60,007 for years 1 and 2. The Center also did not meet the cash match requirement
for year 1 and the overall match requirement for years 2 and 3.

                        Unsupported                        $142,779
                        Unallocable                         $16,482
                        Unreasonable                         $8,187
                        Total Unallowable                  $167,448


                        Unexpended Federal Funds            $60,007
                        Total Unallowable and Unexpended   $227,455
                        Federal Funds


Project Year 1

       We found $36,695 in unallowable costs out of $206,225 recorded for the first
project year. Of this amount, $28,641 was unsupported; and $8,054 was
unreasonable. In addition, there was a $30,887 difference (unexpended Federal funds)
between the amount of Federal funds received and that posted in the Center’s




                                             2

accounting system. As a result, we questioned $67,582 that is comprised of $48,637 of
Federal and $18,945 of match (cash and in-kind) as shown in Tables 1 and 2, located
in Attachment 1.

        The Center entered into two consulting agreements directly with board members
that were unreasonable in nature. The agreements, which totaled $8,000, stated that
the board members were to build consortium working relationships, beyond their role as
board members; encourage corporate participation in programs sponsored by the
Center; and increase the public awareness of the Center’s services. OMB Circular
A-122 states that in determining the reasonableness of a cost, consideration shall be
given to the restraints or requirements imposed by such factors as arms length
bargaining. These agreements were not arms length. The Center also received cash
and in-kind match from the corporate sponsors and consortium parties made reference
to indirectly in the agreements. OMB Circular A-122 states that, costs of organized
fundraising and similar expenses incurred solely to raise capital or obtain contributions,
are unallowable.

       The Center also purchased flowers that totaled $54, which was an unreasonable
cost. The flowers were for an employee who was in the hospital. OMB Circular A-122
states that in determining the reasonableness of a cost, consideration shall be given to
whether the cost is of a type generally recognized as ordinary and necessary for the
performance of the award.

       There also was a $30,887 difference between the amount of Federal funds
received and the amount posted to the Center’s accounting system. The Center
received $150,000 in Federal funds during project year 1, but its accounting system
showed $119,113 of Federal expenditures. The cooperative agreement requires that
costs may be charged to the agreement only if incurred during the budget period of
June 15, 1995, through September 30, 1996.

Required Reimbursement For Project Year 1

       Because $48,637 in unallowable Federal costs and unexpended Federal funds
will decrease the Federal funds provided to the Center, its cash match requirement will
also be reduced. The Center was required to match 50 percent of the Federal funds
received, of which, at least 50 percent must be in cash. Although the overall match
requirement was met, the Center was undermatched in cash by $1,988. Consequently,
the Center only needs to reimburse SBA for $1,988 of the unallowable cash match that
was shown in the Center’s accounting system. In total, the Center should reimburse
SBA $50,625 as shown in the following table.




                                            3

                          Calculation of Required Reimbursement

              Federal Funds Received                             $150,000
              Federal Costs Allowed                              $101,363
              Reimbursement For Unallowable Federal
              Costs & Unexpended Federal Funds                              $48,637

              Total Match Required (50% of $101,363)              $50,681
              Cash Match Required (50% of $50,681)                $25,340

              Cash Match Posted In Acctg. System       $49,612
              Unallowable Cash Match                   $26,260
              Cash Match Allowed                                  $23,352
              Reimbursement For Cash Match Shortage                          $1,988

              Total Required Reimbursement                                  $50,625


Project Year 2

       We found $99,645 in unallowable costs out of $301,650 recorded for the second
project year. Of this amount, $99,544 was unsupported; and $101 was unreasonable.
In addition, there was a $29,120 difference (unexpended Federal funds) between the
amount of Federal funds received and that posted to the Center’s accounting system.
As a result of the foregoing, we questioned $128,766 that is comprised of $33,676 of
Federal and $95,090 of match (cash and in-kind) as shown in Tables 3 and 4, located
in Attachment 2.

      The Center purchased food for Center board meetings that totaled $101, which
was an unreasonable cost. OMB Circular A-122 states that in determining the
reasonableness of a cost, consideration shall be given to whether the cost is of a type
generally recognized as ordinary and necessary for the performance of the award.

       There also was a $29,120 difference between the amount of Federal funds
received and the amount posted to the Center’s accounting system. The Center
received $150,000 in Federal funds during project year 2, but its accounting system
showed $120,880 of Federal expenditures. The cooperative agreement requires that
costs may be charged to the agreement only if incurred during the budget period of
June 15, 1996, through September 30, 1997.

Required Reimbursement For Project Year 2

       Because $33,676 in unallowable Federal costs and unexpended Federal funds
will decrease the Federal funds provided to the Center, its matching requirement will
also be reduced. The Center was required to match 100 percent of the Federal funds
received, of which, at least 50 percent must be in cash. Although the Center met the
cash match requirement, the Center was undermatched overall by $30,644.
Consequently, the Center only needs to reimburse SBA for $30,644 of the unallowable




                                                  4

costs that were shown in the Center’s accounting system as match. In total, the Center
should reimburse SBA $64,320 as shown in the following table.

                          Calculation of Required Reimbursement

              Federal Funds Received                              $150,000
              Federal Costs Allowed                               $116,324
              Reimbursement For Unallowable Federal
              Costs & Unexpended Federal Funds                               $33,676

              Total Match Required                                $116,324

              Total Match Posted In Acctg. System      $180,770
              Total Unallowable Match                   $95,090
              Total Match Allowed                                  $85,680
              Reimbursement For Total Match Shortage                         $30,644

              Total Required Reimbursement                                   $64,320


Project Year 3

       We found $31,108 in unallowable costs out of $74,191 recorded for the third
project year. Of this amount, $16,482 was unallocable; $14,594 was unsupported; and
$32 was unreasonable. As a result, we questioned $31,108 that is comprised of $4,851
of Federal and $26,257 of match (cash and in-kind) as shown in Tables 5 and 6,
located in Attachment 3.

        The Center’s accounting system contained a $16,482 cash match entry that was
not allocable as cash match to the grant. The entry was for donated office space and
was an annualized figure. The $16,482 in cash match was not allocable to the award
for two reasons. First, the donated space should have been entered as in-kind and not
cash match. OMB Circular A-110 defines cash contributions as the recipient’s cash
outlay, including the outlay of money contributed to the recipient by third parties. In this
case, the Center did not make a cash outlay, nor did it receive $16,482 from the Small
Business Development Center who donated the space. Second, the Center should
have prorated the amount and entered $6,186, instead of $16,482, because project
year 3 ended on February 16, 1998. OMB Circular A-122 states that a cost is allocable
to the award if it benefits both the award and other work and can be distributed in
reasonable proportion to the benefits received. The project did not receive an entire
year’s benefits from the donated space. As a result, we questioned $16,482 of the
cash match, but we applied $6,277 as an offset against in-kind match questioned.

       The Center also purchased flowers that totaled $32, which was an unreasonable
cost. The flowers were for a North Texas Women’s Business Development Center
board member who was in the hospital. OMB Circular A-122 states that in determining
the reasonableness of a cost, consideration shall be given to whether the cost is of a
type generally recognized as ordinary and necessary for the performance of the award.




                                                 5

Required Reimbursement For Project Year 3

       Because $4,851 in unallowable Federal costs will decrease the Federal funds
provided to the Center, its matching requirement will also be reduced. The Center was
required to match 200 percent of the Federal funds received, of which, at least 50
percent must be in cash. Although the Center met the cash match requirement, the
Center was undermatched overall by $5,484. Consequently, the Center only needs to
reimburse SBA for $5,484 of the unallowable costs that were shown in the Center’s
accounting system as match. In total, the Center should reimburse SBA $10,335 as
shown in the following table.

                          Calculation of Required Reimbursement

              Federal Funds Received                             $21,560
              Federal Costs Allowed                              $16,709
              Reimbursement For Unallowable Federal
              Costs                                                         $4,851

              Total Match Required                               $33,418

              Total Match Posted In Acctg. System      $54,191
              Total Unallowable Match                  $26,257
              Total Match Allowed                                $27,934
              Reimbursement For Total Match Shortage                        $5,484

              Total Required Reimbursement                                 $10,335




Recommendations

      We recommend that the Assistant Administrator for Administration notify the
Center’s board of directors to:

1A. 	 Reimburse SBA $50,625 for unallowable costs and unexpended Federal funds
      identified in project year 1.

1B. 	 Reimburse SBA $64,320 for unallowable costs and unexpended Federal funds
      identified in project year 2.

1C. 	 Reimburse SBA $10,335 for unallowable costs identified in project year 3.


Auditee Comments

         The Center provided written rationale and additional supporting documentation
that it considered was sufficient to substantiate a portion of the costs in question. The
Center’s comments, less enclosures, are included as Attachment 4.




                                                 6

Evaluation of Auditee Comments

      After analyzing the additional documentation submitted by the Center, we
reduced our questioned costs by $34,659. Accordingly, we adjusted Attachments 1
through 3 to reflect this reduction. As a result, the amount of recommended
reimbursement was also reduced to a total of $125,280.


SBA Management’s Response and OIG Evaluation

       The Assistant Administrator for Administration concurred with our
recommendations that the Center reimburse SBA a total of $125,280 for the
unallowable costs and unexpended Federal funds cited in the report. His comments
are included as Attachment 5 and are responsive to our recommendations.


Other Matters

SBA Erroneous Claim of Ownership Over Equipment

      At the request of SBA’s Office of Procurement and Grants Management, we
determined the appropriate disposition of computers and a server that were purchased

by the Center and currently located at the Small Business Development Center. We
found that SBA made an erroneous claim of ownership over equipment purchased by
the Center.

        The SBA Dallas District Office claimed that the computer equipment, which cost
approximately $40,000, was the property of the Federal government, and not the
property of the Center. SBA directed the Center to leave the computer equipment and
furniture at the office space that the Center previously shared with North Texas Small
Business Development Center (NTSBDC). This directive was contrary to the desires of
the Center’s board of directors. SBA’s actions were based on a Memorandum of
Understanding (MOU) dated September 30, 1997, between the Center and the
NTSBDC. The MOU stated that upon the dissolution of the Center, the NTSBDC will
have first option to purchase the computer lab equipment and furniture at an agreed
upon price.

       We determined that the computer equipment and related furniture was
purchased by the Center with matching funds. OMB Circular A-110, however, only
addresses ownership and disposition of equipment purchased with Federal funds.
Therefore, SBA’s claim of ownership over the equipment is not supported by OMB
regulations. As a result, SBA never had a share in the ownership of the computer
equipment and therefore, did not have the right to issue directives regarding the




                                          7

disposition of the equipment since the computer equipment was purchased with non-
Federal funds.

Apparent Conflicts of Interest

        The Center purchased office supplies, computer workstations, and airline tickets
totaling $9,876 from companies owned by North Texas Women’s Business
Development Center board members. OMB Circular A-110 states that all procurement
transactions should be conducted in a manner that provides, to the maximum extent
practical, open and free competition. The Circular also states that the recipient should
be alert to organizational conflicts of interest that may restrict or eliminate competition.
Although there was an organizational conflict of interest, we did not determine that the
prices paid were unreasonable. Since the project has ended, no recommendation is
necessary. The same type of finding was also included in our report of the On-line
Women’s Business Center.



                                           ***

      The finding included in this report is the conclusion of the Auditing Division based
upon the auditors’ testing of the auditee’s operations. The finding and
recommendations are subject to review and implementation of corrective action
by your office following existing Agency procedures for audit follow-up and
resolution.

       Please provide us your management decisions for the recommendations within
80 days. Record your management decision on the attached SBA Form 1824,
“Recommendation Action Sheet” and show either your proposed corrective action and
target date for completion, or an explanation of your disagreement with our
recommendations.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.

       Should you or your staff have any questions, please contact Victor R. Ruiz,
Director, Business Development Programs Group at (202) 205-7204.

Attachments




                                             8

                                                                                                            Attachment 1

                         Year 1 Unallowable Federal Costs (Table 1)

             Reason                         Cost Category                      Date Posted          Amount


             Unexpended Fed. Funds          N/A                                    N/A           $30,887.08
             Inadequate Support             Contractual – Facilitators           9/30/96          $3,500.00
             Inadequate Support             Contractual – Facilitators           9/30/96          $1,000.00
             Unreasonable                   Contractual – Other                  9/30/96          $4,000.00
             Unreasonable                   Contractual – Other                  9/30/96          $4,000.00
             Inadequate Support             Other – Maintenance & Rental         9/30/96          $1,800.00
             Inadequate Support             Other – Software                     9/30/96          $1,715.00
             Inadequate Support             Other – IRS                          2/26/96            $465.00
             Unreasonable                   Other – Flowers                      9/30/96             $54.13
             Inadequate Support             Salary – Fringe                      10/30/95           $253.45
             Inadequate Support             Supplies – General Office            9/30/96            $201.20
             Inadequate Support             Travel – In Region                   9/20/95            $402.35
             Inadequate Support             Travel – Washington, DC              7/29/96            $359.00
             TOTAL                                                                               $48,637.21




                         Year 1 Unallowable Matching Costs (Table 2)

Reason                    Cost Category                   Date Posted      Cash Match       In-kind Match     Total Match


Inadequate Support for    Equipment – Purchases                8/1/95                          $1,670.00
$1,670 out of $6,731
Inadequate Support        Equipment – Purchases               9/30/96        $4,061.00
Inadequate Support for    Other – Administrative              6/30/96        $4,485.00
Cash
Inadequate Support for    Other – Training Services           6/30/96        $4,500.00
Cash
Inadequate Support        Salary – Fringe                     8/30/96         $713.58
Inadequate Support        Salary – Fringe                     6/30/96        $2,500.00
Inadequate Support        Salary                              6/30/96       $10,000.00
Reclassify to In-kind     Other – Administrative                                              $(4,485.00)
Reclassify to In-kind     Other – Training Services                                           $(4,500.00)
TOTAL                                                                       $26,259.58        $(7,315.00)      $18,944.58
                                                                                                        Attachment 2

                          Year 2 Unallowable Federal Costs (Table 3)

             Reason                         Cost Category                   Date Posted          Amount


             Unexpended Fed. Funds          N/A                                 N/A           $29,119.61
             No Support                     Salary – Fringe                   3/19/97            $657.31
             No Support                     Salary – Fringe                   8/18/97            $999.16
             No Support                     Supplies – General Office         10/1/96          $2,570.00
             No Support for $329.49 out     Travel                            9/30/97            $329.49
             of $1,356.05
             TOTAL                                                                            $33,675.57




                      Year 2 Unallowable Matching Costs (Table 4)

Reason                Cost Category                  Date Posted        Cash Match      In-kind Match      Total Match


Unreasonable          Other – Administrative            4/10/97             $13.28
Unreasonable          Other – Administrative            5/15/97             $69.90
Unreasonable          Other – Administrative            7/10/97             $18.26
Inadequate Support    Other – Meeting Facilities        9/30/97            $800.00
No Support            Salary                            10/1/96           $1,140.48
No Support            Salary                            3/19/97           $2,711.00
No Support            Salary                            4/18/97           $1,342.50
No Support            Salary                            4/20/97           $2,877.90
No Support            Salary                             5/9/97           $1,780.00
No Support            Salary                            5/30/97           $1,555.50
No Support            Salary                            6/17/97           $7,573.28
Inadequate Support    Salary                            7/11/97          $10,395.00
No Support            Salary                            9/30/97           $2,296.00
No Support            Salary                            9/30/97           $2,604.00
No Support            Salary                            9/30/97           $5,595.00
Inadequate Support    Contractual – Other               7/11/97                           $30,000.00
Inadequate Support    Other – Postage                   7/11/97                            $1,000.00
Inadequate Support    Other – Printing                  7/11/97                            $4,200.00
No Support            Other – Training Services         2/18/97                              $475.00
No Support            Other – Training Services         3/11/97                              $300.00
No Support            Other – Training Services         3/13/97                              $300.00
Inadequate Support    Other – Training Services         7/11/97                            $1,500.00
Inadequate Support    Other – Training Services         7/11/97                            $1,050.00
No Support            Other – Training Services         7/17/97                           $15,492.79
TOTAL                                                                    $40,772.10       $54,317.79        $95,089.89
                                                                                                           Attachment 3

                          Year 3 Unallowable Federal Costs (Table 5)

                           Reason             Cost Category     Date Posted            Amount


                           No Support         Salary – Fringe        10/24/97          $252.51
                           No Support         Salary – Fringe        11/7/97          $4,598.34
                           TOTAL                                                      $4,850.85




                          Year 3 Unallowable Matching Costs (Table 6)

Reason                      Cost Category               Date Posted       Cash Match       In-kind Match    Total Match


Misclassified as Cash &     Other – Rent                  12/1/97          $16,482.00
Partially Unallocable
Unreasonable                Other – Flowers               12/18/97               $32.48
No Support                  Salary – Fringe                1/2/98              $2,572.93
No Support                  Salary                        10/10/97             $2,651.86
Inadequate Support          Salary                        12/1/97               $375.00
Inadequate Support          Salary                        12/1/97               $720.00
Inadequate Support          Salary                        12/1/97               $498.00
Inadequate & No Support     Salary                        Various                             $7,320.00
No Support                  Contractual – Programs        9/30/97                             $1,881.80
Offset to In-kind                                                                            $(6,276.71)
TOTAL                                                                      $23,332.27         $2,925.09      $26,257.36
                                                                                  Attachment 4
                                                                                    Page 3 of 9

                         Year 1 Unallowable Federal Costs (Table 1)


Unexpended Federal Funds - $30,887.08. A request has been made to the Contracting Officer at
SBA to determine any contract modifications that extended the funding year for year 1. Due to
the amount of time between the close of the contract and the audit, the contracting files are
apparently incomplete. We lack institutional memory and there are no close out records
available from the physical site. At this time, we are waiting on a response from the SBA
contracting office.

Inadequate Support for $4,000 for Facilitators. Enclosed for support of this expenditure is an
invoice from NTWBC to teach 16 certification workshops at $250.00 each from 1 May-30
September 1996. Check number 1231 is also included as supporting documentation of the
expenditure.

Inadequate Support for $3,500 for Facilitators. Enclosed is a copy of cancelled check #1232,
payable to NAWBO, for program facilitation for one year. There is no further detail available.

Inadequate Support for $1,000 for Facilitators. Enclosed is a copy of cancelled check #1233
payable to the Chamber of Commerce for program facilitation for a year. There is no further
detail available.

Unreasonable Expense for a $4,000 contract. There were two contracts; one for [FOIA Ex. 6]
and one for [FOIA Ex. 6]. Each of these contracts is signed by Liz Klimbeck, Chairman of the
Board of Directors for the NTWBDC at the time as well as Regional Director of the Dallas
SBDC. These contracts were given to [FOIA Ex. 6] based on their history and experience as
women business owners and their experience with building relationships between women
business owners and corporations. These contracts were performed outside of their
responsibilities as Board Members.

No Support for Other – Dues & Sub. Enclosed is a copy of cancelled check #14 payable to the
Chamber of Commerce in the amount of $2,450 and $250 of which is the amount of the dues as
detailed on the front of the check and on the enclosed invoice.

No Support for Other – Maintenance & Rental. Enclosed is a copy of an invoice from Xerox for
the yearly rental and maintenance of a copier in the amount of $1800. The invoice was paid with
check #1224, which cannot be located. Enclosed is a copy of the check detail report printed from
the accounting system identifying the missing check.

Inadequate Support for Other – Software. Enclosed is a copy of a cancelled check #1230 for
$5776 which includes the $1715 in question. No other back up invoice could be located.

Inadequate Support for Other – Training Material. Enclosed is a copy of cancelled check #1228
for $882. An invoice for the same amount if also enclosed to support the expenditure.
                                                                                  Attachment 4
                                                                                    Page 4 of 9

Inadequate Support for Other – IRS. No back up to support the $465 check to the IRS could be
found. However, it did appear as a sweep account for the IRS to directly withdraw the money
from the account.

Inadequate Support for Other – Flowers. Enclosed is a copy of cancelled check #1222 for $54.13
as well as an invoice from McShan Florist. This was a flower arrangement sent by the Board of
Directors to a NTWBDC person who was sick and in the hospital.

Inadequate Support for Salary – Fringe. There is no back up for this number, but it is the amount
that was paid every month by the NTWBDC for health insurance for the director, [Ex. 6]. There
is documentation for other months to justify this expense.

Inadequate Support for Salary – Fringe. Enclosed is check #1331 to Bailey Insurance Associates
for $2320, which covers liability, auto, workman’s comp and directors insurance. The invoice is
also enclosed which is for a larger amount than what was actually paid.

Inadequate Support for Salary – Fringe. Enclosed is check #1057 to the IRS for $1470.57 to pay
payroll taxes as well as a receipt from the IRS showing that this amount had been credited to the
NTWBDC.

No Support for Salary – Fringe. Enclosed please find payroll check #1193 showing $107.31 in
social security deductions.

No Support for Salary. Enclosed please find payroll check #1210 for $1256.36 which is the net
salary of the gross $1730.77 that needed supporting documentation.

Inadequate Support for Supplies – General Office. Enclosed are receipts to support $200.24 of
the $401.44 in question.

No Support for Travel – In Region. Enclosed please find a detailed invoice in support of the
$650.92 in question.

Inadequate Support for Travel – In Region. No documentation could be found to support the
$402.35 in question.

No Support for Travel – In Region. Enclosed is cancelled check #1031 and supporting
documentation for $916.32.

Inadequate Support for Travel – Washington, DC. No documentation could be found to support
the $359.00 in question.

No Support for Travel – Washington, DC. Enclosed is supporting documentation for the
$759.49 in question.



                                                                                        FOIA Ex.6
                                                                                   Attachment 4
                                                                                     Page 5 of 9

                        Year 1 Unallowable Matching Costs (Table 2)

Inadequate Support for $1670 out of $6731 for Equipment – Purchases. Enclosed is a
memorandum of understanding detailing all of the equipment items for the total amount ($6731)
of in kind contributions.

Inadequate Support for Equipment – Purchases. No documentation could be found to support the
$4061 in question.

No Support for Other – Administrative. Enclosed is a letter from the Dawson Group providing
support for the cash match amount of $4485.

Inadequate Support for Other – Training Services. Enclosed is a letter from NAWBO providing
support for the cash match amount of $4500.

Inadequate Support for Salary – Fringe. Enclosed is a time sheet that provides support for check
#1192 in the amount of $458.15 which is a partial amount of the $713.58 in question.

No Support for Salary – Fringe. Enclosed is a letter providing support to use the salary in
question as a cash match.

No Support for Salary. Same as above.

Inadequate Support for Salary. Enclosed is a time sheet and cancelled check #1201 for payroll
amount $833.26 which is the net amount of the $1019.23 gross payroll amount in question.

Inadequate Support – Travel. Enclosed is cancelled check #1236 for $986.27 and all supporting
documentation.
                                                                               Attachment 4
                                                                                 Page 6 of 9

                        Year 2 Unallowable Federal Costs (Table 3)

Unexpended Federal Funds - $29,119.61. A request has been made to the Contracting Officer at
SBA to determine any contract modifications that extended the funding year for year 2. Due to
the amount of time between the close of the contract and the audit, the contracting files are
apparently incomplete. We lack institutional memory and there are no close out records
available from the physical site. At this time, we are waiting on a response from the SBA
contracting office.

Inadequate Support for Other – Training Services. Enclosed is a copy of cancelled check #1351
to the Chamber of Commerce in the amount of $3000, an invoice from the Chamber for $3000
and a letter from the Chamber supporting the expense.

No Support for Salary – Fringe. No documentation was found to support the $999.16 in
question.

Inadequate Support for Supplies – General Office. Enclosed is cancelled check #1379 for
$2465.03 as well as supporting documentation for the $865.15 in question. Also, check #1379
covers the expenses for the $1599.88 in question under cash match. Supporting documentation
for this equipment purchase is also supplied.

No Support for Supplies – General Office. No documentation was found to support the $2570 in
question.

No Support for Travel. No documentation can be found to support the $329.49 in question.
                                                                               Attachment 4
                                                                                 Page 7 of 9

                       Year 2 Unallowable Matching Costs (Table 4)

Inadequate Support for Equipment – Purchases. See cancelled check #1379 under Table 3.

No Support for Other – Administrative. Cancelled check #1307 for $13.28 as well as receipt
submitted in support of donut expense for Board meeting.

No Support for Other – Administrative. Cancelled check #1318 for $69.90 as well as receipt
submitted in support of lunch expense for Board meeting.

No Support for Other – Administrative. Cancelled check #1331 for $1050 as well as invoice
submitted in support of insurance expense.

No Support for Other – Administrative. Cancelled check #1332 for $2157 as well as invoice
submitted in support of insurance expense.

No Support for Other – Administrative. Cancelled check #1338 for $18.26 as well as receipt
submitted in support of donut expense for Board meeting.

Inadequate Support for Other – Meeting Facilities. Cancelled check #1381 for $3000, $800 of
which is meeting facilities expense. No supporting documentation could be found.

No Support for Other – Software Labor. Cancelled check #1301 for $1743 is enclosed. Also,
two invoices in the amount of $1575 are enclosed in support of the number in question.

No Support for Salary. Enclosed please find supporting documentation for the cash match salary
of $10,395. No supporting documentation could be found for the following cash match salary
numbers:
$1140.48
$2711.00
$1342.50
$2877.90
$1780.00
$1555.50
$7573.28
$2296.00
$2604.00
$5595.00

Inadequate Support for (listed below): Enclosed is a letter from the Vice President of the
Chamber of Commerce listing each of the in kind donations for the Dallas Women’s Covenant.
Contractual – Other           $30,000
Other – Postage               $ 1,000
Other – Printing              $ 4,200
Other – Training              $ 1,500
Other – Training              $ 1,050
                                                                              Attachment 4
                                                                                Page 8 of 9

No Support for Other – Training Services. No supporting documentation could be found for the
following in kind match numbers:
$475.00
$300.00
$300.00
$15,492.79
                                                                                  Attachment 4
                                                                                    Page 9 of 9

                         Year 3 Unallowable Federal Costs (Table 5)

No Support for Salary – Fringe. Enclosed is supporting payroll documentation for the amount
$132.41 in question. No supporting documentation was found for the following amounts:
$252.51
$4598.34


                         Year 3 Unallowable Federal Costs (Table 6)

Misclassified as Cash & Partially Unallocable: Other – Rent. We are not able to address this
issue or understand why it is not allowed. No one involved in this audit was here at the time this
agreement took place. However, no rent was paid in cash during this period due to the office
space being provided by Bill J. Priest Institute for Economic Development as an in-kind match.

Unreasonable for Other – Flowers. Enclosed please find a copy of cancelled check #1394 and an
invoice for $32.48. This flower arrangement was sent to a Board of Director member who was in
the hospital.

No Support for Salary – Fringe. No supporting documentation could be found for the $2572.98
in question.

No Support for Salary. No supporting documentation could be found for the $2651.86 in
question.

Inadequate Support for Salary. Enclosed please find time sheets to justify the following amounts
in question:
$375.00
$720.00
$498.00

Inadequate and No Support for Salary. No supporting documentation could be found for the
$7320.00 in question.

No Support for Contractual – Programs. No supporting documentation could be found for the
$1881.80 in question.

Offset to In-Kind. Refer to first item answer in Table 6.
                                                                                                        Attachment 6 


                                        REPORT DISTRIBUTION


Recipient                                                                                      No. of Copies        


Associate Deputy Administrator for Management and Administration .........1 


Associate Deputy Administrator for Entrepreneurial Development ..............1 


Associate Administrator for Field Operations ...............................................1 


Assistant Administrator for Administration....................................................1 


Assistant Administrator for Women’s Business Ownership..........................1 


District Director, Dallas District Office ..........................................................1 


General Counsel ..........................................................................................2 


Office of the Chief Financial Officer

Attention: Jeff Brown ...................................................................................1

